     DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                        Office of Audit Services, Region I
                                                                        John F. Kennedy Federal Building
                                                                        Room 2425
                                                                        Boston, MA 02203
October 24, 2011

Report Number: A-01-11-00528

Mr. Paul O’Donnell
Vice President Medicare Operations
Noridian Administrative Services
900 42nd Street South
Fargo, ND 58103

Dear Mr. O’Donnell:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Outpatient Claims Processed by Noridian
Administrative Services That Included Procedures for the Insertion of Multiple Units of the Same
Type of Medical Device in Calendar Years 2008 and 2009. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kimberly Rapoza, Audit Manager, at (617) 565-2695 or through email at
Kimberly.Rapoza@oig.hhs.gov. Please refer to report number A-01-11-00528 in all
correspondence.

                                             Sincerely,



                                             /Michael Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Paul O’Donnell

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



      REVIEW OF OUTPATIENT
  CLAIMS PROCESSED BY NORIDIAN
  ADMINISTRATIVE SERVICES THAT
    INCLUDED PROCEDURES FOR
    THE INSERTION OF MULTIPLE
    UNITS OF THE SAME TYPE OF
   MEDICAL DEVICE IN CALENDAR
       YEARS 2008 AND 2009




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-01-11-00528
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                              EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program. CMS employs Medicare contractors, including Noridian Administrative
Services, LLC (Noridian), to process and pay hospital outpatient claims using the Fiscal
Intermediary Shared System (FISS).

CMS implemented an outpatient prospective payment system (OPPS) for hospital
outpatient services. Under the OPPS, Medicare pays for hospital outpatient services on a
rate-per-service basis that varies according to the assigned ambulatory payment
classification group. Under the OPPS, outlier payments are available when exceptionally
costly services exceed established thresholds.

Common medical devices implanted during outpatient procedures include cardiac devices
and joint replacement devices. Generally, a provider implants only one cardiac device
during an outpatient surgical procedure. Under the OPPS, payments to hospitals for
medical devices are “packaged” into the payments for the procedures to insert devices.
Hospitals are required to report the number of device units and related charges accurately
on their claims. The failure to report device units and related charges accurately could
result in incorrect outlier payments.

Our audit covered $99,947 in Medicare outlier payments to hospitals for 28 claims for
outpatient procedures that included the insertion of more than one of the same type of
medical device. The 28 claims had dates of service during calendar years (CY) 2008
and 2009.

OBJECTIVE

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by Noridian that included procedures for the insertion of multiple units
of the same type of medical device.

SUMMARY OF FINDINGS

Of the 28 claims that we reviewed, Medicare paid 21 correctly for outpatient claims
processed by Noridian that included procedures for the insertion of multiple units of the
same type of medical device. However, for the remaining seven claims, Medicare did not
pay hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments.




                                            i
For the seven claims, Noridian made overpayments to hospitals totaling $38,810.
Incorrect payments occurred because hospitals had inadequate controls to ensure that
they billed accurately for claims that included the insertion of medical devices. In
addition, Medicare payment controls in the FISS were not always adequate to prevent or
detect incorrect payments.

RECOMMENDATIONS

We recommend that Noridian:

   •   recover the $38,810 in overpayments for seven inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

NORIDIAN ADMINISTRATIVE SERVICES COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations
and described its corrective actions. Noridian’s comments are included in their entirety
as the Appendix.




                                            ii
                                             TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
             Hospital Outpatient Prospective Payment System ............................................1
             Medical Devices................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................1
              Objective ...........................................................................................................1
              Scope ................................................................................................................2
              Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PROGRAM REQUIREMENTS ................................................................................3

          PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY .............................3

          CAUSES OF INCORRECT PAYMENTS ................................................................4
               Inadequate Controls at Hospitals ...................................................................4
               Inadequate Medicare Payment Controls ........................................................4

          RECOMMENDATIONS ...........................................................................................4

          NORIDIAN ADMINISTRATIVE SERVICES COMMENTS .................................5

APPENDIX

          NORIDIAN ADMINISTRATIVE SERVICES COMMENTS




                                                               iii
                                   INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act),
provides health insurance coverage to people aged 65 and over, people with disabilities,
and people with end-stage renal disease. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. Part B of Title XVIII provides supplementary
medical insurance for medical and other health services, including the coverage of
hospital outpatient services.

CMS contracted with Noridian Administrative Services, LLC (Noridian), to, among other
things, process and pay claims submitted by hospital outpatient departments. Noridian
uses the Fiscal Intermediary Shared System (FISS) for processing hospital claims.
Noridian processes claims for Arizona, Montana, North Dakota, South Dakota, Utah, and
Wyoming.

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the
Medicare, Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced
Budget Refinement Act of 1999, P.L. No. 106-113, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS was
effective for services furnished on or after August 1, 2000. Under the OPPS, Medicare
pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). All services and items within an
APC group are comparable clinically and require comparable resources. Under the
OPPS, outlier payments are available when exceptionally costly services exceed
established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac devices
and joint replacement devices. Generally, a provider implants only one cardiac device,
such as a pacemaker or implantable cardioverter defibrillator, during an outpatient
surgical procedure. Under the OPPS, payments to hospitals for medical devices are
“packaged” into the payments for the procedures to insert devices. Although Medicare
does not pay separately for devices, hospitals are required to report the number of device
units and related charges accurately on their claims. The failure to report device units
and related charges accurately could result in incorrect outlier payments.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare paid hospitals correctly for outpatient

                                             1
claims processed by Noridian that included procedures for the insertion of multiple units
of the same type of medical device.

Scope

Our audit covered $99,947 in Medicare outlier payments to hospitals for 28 claims for
outpatient procedures that included the insertion of more than one of the same type of
medical device. The 28 claims had dates of service during calendar years (CY) 2008
and 2009.

Our objective did not require an understanding or assessment of the complete internal
control structures of the hospitals or Noridian. Therefore, we limited our review at
hospitals to the controls related to preparing and submitting Medicare claims for
procedures that included the insertion of selected medical devices. We limited our
review at Noridian to the controls related to preventing or detecting Medicare
overpayments to hospitals for outpatient claims with overstated medical device units.

Our fieldwork included contacting Noridian and the 15 hospitals that submitted the 28
claims in our review. We conducted our fieldwork from September 2010 through
February 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted hospitals’ outpatient paid claim data from CMS’s National Claims
        History file for CYs 2008 and 2009;

   •    developed computer applications to identify outpatient claims processed by
        Noridian that included procedures for the insertion of multiple units of the same
        type of medical device and identified 28 claims to review;

   •    reviewed the hospitals’ itemized bills for 28 claims and selected beneficiaries’
        medical records to determine whether the hospitals submitted claims with the
        correct device units and associated charges;

   •    reviewed CMS’s Common Working File claims history for the 28 claims to
        validate the results of our computer match and to verify that the selected claims
        had not been canceled;

   •    contacted representatives of the 15 hospitals that submitted the claims to verify
        whether the claims were billed correctly and to determine the causes of
        noncompliance with Medicare billing requirements;


                                             2
   •   contacted Noridian to obtain an understanding of edits in the FISS and other
       controls intended to prevent or detect overpayments to hospitals;

   •   calculated the correct payments for claims that needed payment adjustments; and

   •   discussed the results of our review with Noridian.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

Of the 28 claims that we reviewed, Medicare paid 21 correctly for outpatient claims
processed by Noridian that included procedures for the insertion of multiple units of the
same type of medical device. However, for the remaining seven claims, Medicare did not
pay hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments.

For the seven claims, Noridian made overpayments to hospitals totaling $38,810.
Incorrect payments occurred because hospitals had inadequate controls to ensure that
they billed accurately for claims that included the insertion of medical devices. In
addition, Medicare payment controls in the FISS were not always adequate to prevent or
detect incorrect payments.

PROGRAM REQUIREMENTS

Section 1862(a)(1)(A) of the Act states no payment may be made under Part A or Part B
for any expenses incurred for items or services that are not reasonable and necessary for
the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member.

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.
Federal regulations (42 CFR § 419.43(d)) provide for outlier payments for hospital
outpatient services, in addition to the prospective payment, when a hospital’s charges
exceed certain thresholds.

PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY

Hospitals incorrectly billed medical device units for 7 of the 28 claims. These billing
errors led to overstated charges, resulting in excessive or unwarranted outlier payments
for seven claims totaling $38,810.

                                            3
                        An Example of Incorrectly Billed Units

       One hospital billed for two programmable infusion pumps units with charges that
       totaled $53,760. However, the hospital should have billed for one unit with
       charges of $24,640. The additional charges for the second unit resulted in an
       unwarranted outlier payment of $7,668 to the hospital.


CAUSES OF INCORRECT PAYMENTS

Inadequate Controls at Hospitals

The four hospitals that received incorrect payments had not established the necessary
controls to ensure that they billed the correct device units for outpatient claims processed
by Noridian that included procedures for the insertion of medical devices. Officials of
these hospitals stated that their billing personnel had billed units incorrectly for one or
more of the following reasons:

   •   Personnel made isolated data entry errors.

   •   Multiple personnel mistakenly entered the same device charges on the same
       claim.

   •   Undetected flaws in the design or implementation of some billing systems caused
       some claims to be submitted with multiple medical device units.

Inadequate Medicare Payment Controls

Medicare payment controls were not always adequate to prevent or detect incorrect
payments. Specifically, CMS established, as part of its FISS prepayment controls, unit
amount thresholds for medically unlikely edits that are too high for certain medical
devices (e.g., currently, there is a two-unit threshold for pacemakers).

RECOMMENDATIONS

We recommend that Noridian:

   •   recover the $38,810 in overpayments for seven inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.



                                             4
NORIDIAN ADMINISTRATIVE SERVICES COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations
and described its corrective actions. Noridian’s comments are included in their entirety
as the Appendix.




                                            5
APPENDIX
                  APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES COMMENTS 

                                                                                            Page 1 of2

~                                              

NDRIDIAN~                                                                              M dicafi 

Administrative Services LLC

  900 42nd Street South 

    Fargo. NO 58103 





           October 18, 2011

           Michael J. Armstrong
           Regional Inspector General for Audit Services
           Office of Audit Services, Region I
           John F. Kennedy Federal Building, Room 2425
           Boston, MA 02203

           RE:     Report Number A-01-11-00528

           Dear Mr. Armstrong:

           Thank you for the opportunity to respond to the draft report of the U.S. Department of
           Health & Human Services, Office oflnspector General (OIG) dated September 19,2011,
           entitled, Review ofOutpatient Claims Processed by Noridian Administrative Services
           That Included Procedures for the Insertion ofMultiple Units ofthe Same Type ofMedical
           Device in Calendar Years 2008 and 2009. We concur with the recommendations for
           improvement made by the OIG. Noridian Administrative Services, LLC (NAS) has
           provided our responses to these recommendations within the contents of this letter.

           The scope of this audit resulted in the review of 28 claims, 21 of which were paid
           correctly. The seven (7) remaining claims involved four (4) hospitals.

           OIG RECOMMENDATIONS;

           Recover the $38,810 in overpayments for seven inaccurate claims
           NAS concurs with this recommendation. The NAS standard overpayment recovery
           process is being utilized to ensure these adjustments are submitted to NAS.

           Continue to alert hospitals of the importance of coding outpatient claims with the
           correct number of medical device units
           NAS concurs with this recommendation. NAS uses both provider specific and broad­
           based provider education tools (e.g. education sessions, articles, etc.). NAS will
           incorporate examples of the subject billing errors in future education efforts.




                                                                                                CAlIS/ 

29301231                                                                                           3201008)4-08
                                                                                 Page 2 of2


Work with eMS to strengthen FISS prepayment edits by revising the unit amount
thresholds for certain medical devices
NAS concurs with this recommendation. NAS will continue to work with CMS, FISS,
and the MUE Advisory Committee as to refining MUE unit of service limits that may, in
some cases, be set too high. In the interim, NAS will work to implement appropriate local
edits. Further, NAS' Part A Medical Review will consider the relevant HCPCs in the
context of potential vulnerabilities analysis that supports review strategies.

Please advise if additional information or further clarification is needed on any of our
response. Please contact Paul O'Donnell, Medicare Operations Vice President, at (701)
277-2401 or through email atPaul.O·Donnell@noridian.com


Sincerely,

lsi PaulO 'Donnell

Paul O'Donnell
Vice President
Noridian Administrative Services, LLC
